CERTIFICATE OF COMPLIANCE
No. 21SUSAN ELAINE DEVINE, Petitioner,
v.
ABSOLUTE ACTIVIST VALUE MASTER FUND
LIMITED, ABSOLUTE EAST WEST FUND
LIMITED, ABSOLUTE EAST WEST MASTER
FUND LIMITED, ABSOLUTE EUROPEAN
CATALYST FUND LIMITED, ABSOLUTE
GERMANY FUND LIMITED, ABSOLUTE INDIA
FUND LIMITED, ABSOLUTE OCTANE FUND
LIMITED, ABSOLUTE OCTANE MASTER FUND
LIMITED, AND ABSOLUTE RETURN EUROPE
FUND LIMITED, Respondents.
As required by Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari contains
6,080 words, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on February 19, 2021

IAN M. COMISKY

